TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      The Internal Revenue Service
                Deployed the Modernized e-File System With
                      Known Security Vulnerabilities



                                    December 30, 2008

                           Reference Number: 2009-20-026




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 2(f) = Law Enforcement - Risk circumvention of Agency regulation or statute



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           December 30, 2008


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION
                CHIEF TECHNOLOGY OFFICER


 FROM:                   (for) Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – The Internal Revenue Service Deployed the
                              Modernized e-File System With Known Security Vulnerabilities
                              (Audit # 200720024)

 This report presents the results of our review to determine whether appropriate security controls
 have been implemented in the Modernized e-File (MeF) system. This review was part of the
 Information Systems Programs business unit’s statutory requirements to annually review the
 adequacy and security of Internal Revenue Service (IRS) information technology.

 Impact on the Taxpayer
 The MeF system will provide a single method for filing all IRS tax returns, information returns,
 forms, and schedules via the Internet. The Modernized Tax Return Database (M-TRDB), a
 component of the MeF system, is the authoritative store of accepted returns and extensions
 submitted through the MeF system. Security weaknesses in the controls over system access,
 monitoring of system access, and disaster recovery have continued to exist even though key
 phases of the MeF system and the M-TRDB have been deployed. As a result, the IRS is
 jeopardizing the confidentiality, integrity, and availability of an increasing volume of tax
 information for millions of taxpayers as application phases are put into operation.

 Synopsis
 The IRS has established appropriate system development policies and procedures that require
 security and privacy safeguards to be planned for and designed in the early phases of a system’s
 development life. Despite these requirements, our review of available test documents provided
 by the IRS showed that both the MeF system and the M-TRDB were deployed with known
                    The Internal Revenue Service Deployed the Modernized e-File
                            System With Known Security Vulnerabilities



security vulnerabilities relating to system access, monitoring of system activities, disaster
recovery, and protection of sensitive data. These vulnerabilities are in areas considered to be
minimum security controls, and they increase the risks that 1) an unscrupulous person could gain
unauthorized access to the vast amount of taxpayer information the IRS processes with little
chance of detection and 2) the system could not be recovered effectively and efficiently during
an emergency.
We believe that these security vulnerabilities are significant because they affect the IRS’ ability
to 1) restrict access to only those individuals with a business need, 2) monitor activities for
questionable transactions, 3) protect data from unauthorized disclosure, and 4) ensure continued
operation of the systems. Many of these same vulnerabilities have been designated as a
bureau-wide material weakness by the IRS. The significance of these security vulnerabilities is
heightened because the MeF system is a critical modernized system that will affect the future
success of the IRS computing environment.
The MeF project office did not prevent and resolve known security vulnerabilities before
deployment of the system. The Submission Processing Executive Steering Committee, 1 which
has final milestone 2 exit approval authority, 1) did not provide sufficient oversight to ensure that
security controls were implemented and 2) signed off unconditionally on MeF system milestones
despite the existence of weaknesses repeatedly reported to the Committee. Finally, the
Cybersecurity organization recommended, and the MeF system owner approved, that the system
be fully accredited 3 without giving adequate consideration of what we view as significant
security vulnerabilities on the system. In our opinion, the system owner’s acceptance of the
excessive risks associated with these security vulnerabilities was not reasonable.
We identified some of these same vulnerabilities in prior audit reports on modernization projects,
including a September 2008 report on the Customer Account Data Engine and the Account
Management Services. 4 IRS management agreed with most of our prior report findings and
responded that they would ensure that security control requirements were planned for early in the

1
  The charter for the Submission Processing Executive Steering Committee shows that its primary objective is to
ensure that project objectives are met, risks are appropriately managed, and expenditures of enterprise resources are
fiscally sound.
2
  Milestones provide for “go/no-go” decision points in a project and are sometimes associated with funding approval
to proceed.
3
  Accreditation is the official management decision given by the owner of an information system to authorize the
operation of the system and to explicitly accept the risks.
4
  The Audit Trail System for Detecting Improper Activities on Modernized Systems Is Not Functioning (Reference
Number 2004-20-135, dated August 2004), Security Controls Were Not Adequately Considered in the Development
and Integration Phases of Modernization Systems (Reference Number 2005-20-128, dated August 2005),
Improvements Are Needed to Ensure the Use of Modernization Applications Is Effectively Audited (Reference
Number 2006-20-177, dated September 29, 2006), and The Internal Revenue Service Deployed Two of Its Most
Important Modernized Systems With Known Security Vulnerabilities (Reference Number 2008-20-163, dated
September 24, 2008).
                                                                                                                   2
                    The Internal Revenue Service Deployed the Modernized e-File
                            System With Known Security Vulnerabilities



Enterprise Life Cycle 5 process and that they were committed to addressing deficiencies in audit
logging on modernized systems. Until security control vulnerabilities are corrected, the IRS is
jeopardizing the confidentiality, integrity, and availability of an increasing volume of tax
information for millions of taxpayers as MeF system phases are put into operation.

Recommendations
We recommended that the Submission Processing Executive Steering Committee consider all
security vulnerabilities that affect the overall security of the MeF system and the M-TRDB
before approving milestone exits. The Commissioner, Wage and Investment Division, and the
Chief Information Officer should provide more emphasis to the MeF project office to both
prevent and resolve security vulnerabilities identified during Enterprise Life Cycle processes.
The Director, Electronic Tax Administration and Refundable Credits, Wage and Investment
Division, as the MeF system owner, should approve interim authorities to operate when
significant security control weaknesses exist in system environments. These interim authorities
to operate should contain specific terms and conditions in accordance with IRS policy that must
be met, including corrective actions to be taken by the information system owners and a required
time period for completion of the corrective actions, before authorities to operate are granted.

Response
IRS management agreed with our recommendations. They will continue to follow the
governance process documented in the Submission Processing Executive Steering Committee
charter, which includes the review of all security vulnerabilities, before milestone exits. They
will continue to follow the existing Enterprise Life Cycle processes for identifying, confirming,
and resolving security vulnerabilities at the requirements, design, development, and testing life
cycle stages, with an increased emphasis in both preventing and resolving security vulnerabilities
identified during the Enterprise Life Cycle processes. They will also strengthen the process for
capturing and documenting Executive Steering Committee meeting minutes.
IRS management will continue to operate in accordance with policies and procedures, which
state that the Designated Approving Authority verifies that security assessments are conducted to
determine that security controls are operating effectively, correctly implemented, and meeting
security requirements of the system. If and when they find that significant control weaknesses
exist in the system environments, they will issue an interim authority to operate with the
appropriate timelines based on the level of risk. Management’s complete response to the draft
report is included as Appendix IV.

5
 The Enterprise Life Cycle is a structured business systems development method that requires preparation of
specific work products during different phases of the development process.
                                                                                                              3
                  The Internal Revenue Service Deployed the Modernized e-File
                          System With Known Security Vulnerabilities




Office of Audit Comment
Although the IRS agreed with all of our recommendations, its related corrective actions are
focused on continuing to follow existing processes or strengthening current processes. As stated
in the report, we believe that the existing security vulnerabilities were not caused by process
deficiencies. Instead, IRS offices did not carry out their responsibilities for ensuring that security
weaknesses were corrected before deployment.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Acting Assistant Inspector General for Audit (Security and Information
Technology Services), at (202) 622-8510.




                                                                                                    4
                     The Internal Revenue Service Deployed the Modernized e-File
                             System With Known Security Vulnerabilities




                                         Table of Contents

Background .............................................................................................. Page 1

Results of Review..................................................................................... Page 3
         Security Vulnerabilities Were Not Given Sufficient
         Attention During the Development and Accreditation
         of the Modernized e-File System..................................................................Page 3
                  Recommendations 1 and 2: ..............................................Page 11

                  Recommendation 3:........................................................Page 12


Appendices
         Appendix I – Detailed Objective, Scope, and Methodology ........................Page 13
         Appendix II – Major Contributors to This Report ........................................Page 15
         Appendix III – Report Distribution List .......................................................Page 16
         Appendix IV – Management’s Response to the Draft Report ......................Page 17
         The Internal Revenue Service Deployed the Modernized e-File
                 System With Known Security Vulnerabilities




                       Abbreviations

IRS              Internal Revenue Service
MeF              Modernized e-File
M-TRDB           Modernized Tax Return Database
NIST             National Institute of Standards and Technology
                     The Internal Revenue Service Deployed the Modernized e-File
                             System With Known Security Vulnerabilities




                                             Background

The Internal Revenue Service (IRS) is currently undergoing a modernization effort to update its
tax processing systems. One of its three 1 most important modernized systems is the
Modernized e-File (MeF) system. The MeF system will provide a single method for filing all
IRS tax returns, information returns, forms, and schedules via the Internet. The Modernized Tax
Return Database (M-TRDB), a component of the MeF system, is the authoritative store of
accepted returns and extensions submitted through the MeF system. The key drivers for the MeF
system are to allow the IRS to collect more tax documents electronically and reduce the costs
associated with the inefficiencies of paper documents and manual processing, while enhancing
customer service and increasing availability of taxpayer information. Internet-based filing
directly supports the goal of revolutionizing how taxpayers transact and communicate with the
IRS.
The Director, Electronic Tax Administration and Refundable Credits, Wage and Investment
Division, is the functional owner of the MeF system. The MeF system is being incrementally
developed over multiple releases. 2 The first release of the MeF system was originally deployed
in January 2004 for the filing season. 3 The system is scheduled to cost $673 million to develop,
operate, and maintain through Fiscal Year 2020, which is the project’s planned completion date.
Release 4 of the MeF system, which was deployed in January 2007, allows for the processing of
the U.S. Return of Partnership Income (Form 1065) and associated forms and schedules 4 for Tax
Year 2006 submissions. Previous releases of the MeF added the Return of Organization Exempt
From Income Tax (Form 990); the U.S. Corporation Income Tax Return (Form 1120); and the
Application for Automatic 6-Month Extension of Time To File Certain Business Income Tax,
Information, and Other Returns (Form 7004). Future releases will add the redesigned
Form 990 and the U.S. Individual Income Tax Return (Form 1040).
The MeF system is 1 of more than 200 computer systems maintained by the IRS to administer
the nation’s tax system. The IRS stores sensitive financial and personal information for more
than 130 million individual taxpayers who file annual Federal income tax returns. Each tax




1
  The three projects at the heart of the IRS Business Systems Modernization program are the Modernized e-File, the
Customer Account Data Engine, and the Account Management Services systems.
2
  A release is a specific edition of software.
3
  The period from January through mid-April when most individual income tax returns are filed.
4
  This adds electronic file submission support for partnerships so that they might submit partnership-related forms in
the same way and through the same process as exempt organizations and corporations currently do through the MeF
system.
                                                                                                              Page 1
                     The Internal Revenue Service Deployed the Modernized e-File
                             System With Known Security Vulnerabilities



return contains personally identifiable information, 5 such as the filer’s name, address, Social
Security Number, and other personal information. Because of the volume of data it maintains,
the IRS is an attractive target for criminals with the intent to commit identity theft by stealing
and using someone else’s identity for their own financial gain.
Like all Federal Government agencies, the IRS should protect its computer systems by
implementing appropriate security controls to ensure the confidentiality, integrity, and
availability of sensitive data, as recommended in the National Institute of Standards and
Technology (NIST) 6 Special Publication 800-53. 7 This Publication specifies the minimum
baseline of security controls that all Federal information systems must address, based on the
security categorization level for a system of high, moderate, or low. These security controls
include system access, audit logging, and contingency planning.
The IRS is specifically required by Federal law to keep taxpayer data confidential and prevent
unauthorized disclosure or browsing of taxpayer records. Section 6103 8 of the Internal Revenue
Code prohibits the disclosure of tax returns and tax return information and requires that the
storage of such information be secured and restricted to only persons whose duties and
responsibilities require access. The Taxpayer Browsing Protection Act of 1997 9 also provided
criminal penalties and civil remedies to help ensure that tax returns and tax return information
remain confidential. These requirements apply to all IRS computer systems that maintain
sensitive data.
This review was performed at the offices of the Chief Information Officer in
New Carrollton, Maryland, and the Enterprise Computing Center in Martinsburg, West Virginia,
during the period September 2007 through August 2008. We conducted this performance audit
in accordance with generally accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




5
  Personally identifiable information is any information that can potentially be used to uniquely identify, contact, or
locate a single person.
6
  The NIST, under the Department of Commerce, is responsible for developing standards and guidelines, including
minimum requirements, for providing adequate information security for all Federal Government agency operations
and assets.
7
  Recommended Security Controls for Federal Information Systems, Revision 1 published December 2006.
8
  26 U.S.C. Section 6103.
9
  26 U.S.C.A. Sections 7213, 7213A, 7431 (West 2006).
                                                                                                                Page 2
                    The Internal Revenue Service Deployed the Modernized e-File
                            System With Known Security Vulnerabilities




                                     Results of Review

Security Vulnerabilities Were Not Given Sufficient Attention During
the Development and Accreditation of the Modernized e-File System
The IRS has established appropriate system development policies and procedures that require
security and privacy safeguards to be planned for and designed in the early phases of a system’s
development life cycle, called the Enterprise Life Cycle. 10 To ensure that projects progress
satisfactorily toward implementation of all security and privacy requirements, the IRS
implemented various evaluations that developmental projects must undergo prior to exiting the
different milestones 11 of the Enterprise Life Cycle. These evaluations include milestone reviews
performed by the Office of Privacy, Information Protection, and Data Security (the Office of
Privacy), the Information Technology Security Architecture and Engineering Office (the
Security Engineering Office), and the Cybersecurity organization. In addition, the IRS annually
updates the security and privacy control requirements that all new and existing information
systems must address to comply with current NIST guidance. For new systems, the goals of
these requirements and evaluations are to ensure that 1) security has been considered and built
into systems and 2) no system is deployed with significant security vulnerabilities.
Despite these requirements, our review of available test documents provided by the IRS showed
that the MeF system was deployed with known security vulnerabilities. For the MeF system and
its database component, the M-TRDB, the following 13 security control vulnerabilities were
identified by the Office of Privacy, the Security Engineering Office, and the Cybersecurity
organization during testing of its Release 4, which was deployed in January 2007.
     1. Unauthorized users had direct access to the MeF system management console, 12
        which provided system administrative functionalities such as the ability to change
        security settings and web services configurations. Any IRS employee with access to
        the Intranet could login to the console. Unauthorized access to the MeF system
        management console increases the risk that the application might be compromised.
     2. Security configuration settings on the MeF system servers and database were not
        sufficiently restrictive. Weak configuration management leaves the database susceptible

10
   The Enterprise Life Cycle is a structured business systems development method that requires preparation of
specific work products during different phases of the development process.
11
   Milestones provide for “go/no-go” decision points in a project and are sometimes associated with funding
approval to proceed.
12
   The IBM WebSphere® Console is used to process web services requests and remote applications belonging to
transmitters or State Governments.
                                                                                                         Page 3
                                                                                                                          -      -



                          ,      The Internal Revenue Service Deployed the Modernized e-File
       i
                                         System With Known Security VuInerarb///tes



                    to known exploitable vulnerabilities as well as potentially allowing unauthorized
                    modifications to its data.
                3. Information input restrictions for State Government electronic tax filings were not
                   in place on the MeF system. Without strict information input restrictions, the MeF
                   system might accept invalid data from State transmitters, which could affect the integrity
                   of MeF system data.
                4. The processes for establishing and confirming user identification on the MeF system
                   did not meet Federal Government standards for accrediting cryptographic
                   modules.13 Weak identification and authentication controls increase the risk that an
                   unauthorized user might gain undetected access to the MeF system and compromise the
                   confidentiality, accuracy, validity, and availability of application data.
                5. Database users had more access privileges than they needed to carry out their
                   responsibilities. Unnecessary access privileges increase the risk that an unauthorized
                   user might gain undetected access to the MeF system and compromise the confidentiality,
                   accuracy, validity, and availability of application data.
                6 . After the maximum number of consecutive unsuccessful login attempts, the MeF
                     system did not enforce automatic account locks on user accounts for a minimum of
                     24 hours in accordance with IRS policies. The account lockout feature was set to
2(f)
                   .               An insufficient lockout mechanism allows a user multiple attempts to gain
                     access to a system, thus increasing the risk that the application data might be
                     compromised.
                7. Several database user accounts had multiple invalid password settings that were not
                   in accordance with IRS policy. Weak authentication controls increase the opportunity
                   for an unauthorized user to gain access to the application, thus increasing the risk that the
                   application data might be compromised.
                8. System users with limited access needs were granted full access to database records.
                   Also, database administrator privileges were provided to non-database
                   administrative personnel. Weak identification controls increase the opportunity for an
                   unauthorized user to gain access to the application, thus increasing the risk that the
                   application data might be compromised.
               9. The MeF system and database have a number of audit logI4weaknesses, including
                  1) all required auditable events are not being captured, 2) no official has been


           l 3 The Federal lnfonnation Processing Standard 140-2 is a Federal Government computer security standard used to
           accredit cryptographic modules (i.e., practice or study of hiding information).
           l 4 An audit log is a chronological record of activities that allows for the reconstruction, review, and examination of a
           transaction from inception to final results. Audit logs can be used to detect unauthorized accesses to computer
           networks.
                                                                                                                            Page 4
                  The Internal Revenue Service Deployed the Modernized e-File
                          System With Known Security Vulnerabilities



       assigned to monitor and maintain system audit mechanisms, 3) no database audit
       reduction tools were used, and 4) certain users that should have limited access have
       full capabilities to access database records, including taxpayer information. Without
       proper audit controls, system compromise could go undetected, resulting in prolonged
       unauthorized access that could otherwise be restricted or prevented. Consequently, the
       confidentiality, integrity, and availability of the taxpayer records maintained by the MeF
       system could be affected.
   10. An audit log review process was not in place, and logs were not being reviewed by
       MeF system officials. Weak supervision and review of user activities increases the
       opportunity for a user to perform undesirable actions that could go undetected by
       organization officials.
   11. An alternate processing site agreement had not been established for the MeF
       system. To ensure the continued operation of the system in the event of a failure or
       disaster, written agreements should be in place to continue processing at an alternate site.
   12. Reports containing personally identifiable information were transmitted in clear
       text. Failure to protect the integrity of transmitted information could allow unauthorized
       access to the information and exposes the IRS to unnecessary risks.
   13. System and database administrators used insecure methods to transmit MeF system
       data within the IRS. Failure to comply with security configuration standards and
       requirements could permit an attacker to compromise the confidentiality, integrity, and
       availability of the system and its data.
Missing security controls in the MeF system relate mainly to system access, audit logging,
disaster recovery, and the protection of sensitive data. These security vulnerabilities increase the
risks that an unscrupulous person could gain unauthorized access to the vast amount of taxpayer
information the IRS processes with little chance of detection and that the system could not be
recovered effectively and efficiently during an emergency. Until security control vulnerabilities
are corrected, the IRS is jeopardizing the confidentiality, integrity, and availability of an
increasing volume of tax information for millions of taxpayers as application phases are put into
operation.
We believe that these security vulnerabilities are significant because they affect the IRS’ ability
to 1) restrict access to only those individuals with a business need, 2) monitor activities for
questionable transactions, 3) protect data from unauthorized disclosure, and 4) ensure continued
operation of the systems. Many of these same vulnerabilities have been designated as a




                                                                                             Page 5
                     The Internal Revenue Service Deployed the Modernized e-File
                             System With Known Security Vulnerabilities



bureau-wide material weakness 15 by the IRS. We also believe that the significance of these
security vulnerabilities is heightened because the MeF system is a critical modernized system
that will affect the future success of the IRS computing environment. If these issues are not
addressed on modernized systems, these weaknesses will continue to exist.
Management Action: Subsequent to our audit fieldwork, the IRS provided us with the current
status of the 13 vulnerabilities cited in our report. We plan to perform a followup review to
evaluate the effectiveness of the IRS’ corrective actions.
     •   Seven security vulnerabilities (numbers 1, 2, 4, 5, 7, 8, and 11) have been resolved.
     •   Two security vulnerabilities (numbers 3 and 12) were found to be invalid and closed.
     •   Two security vulnerabilities (numbers 6 and 13) are unresolved, with one of the
         vulnerabilities (number 13) to be resolved when MeF Release 5.5 deploys in
         January 2009.
     •   One security vulnerability (number 9) is partially resolved, with the remaining actions to
         be completed in Fiscal Year 2009.
     •   One security vulnerability (number 10) is being addressed by the Wage and Investment
         Division Office of Electronic Tax Administration and Refundable Credits and the
         Cybersecurity organization to develop a process to enable the review of exception audit
         reports. Additional time is required to complete this process, and the target completion
         date is December 31, 2008.
We identified two areas of concern as to why the MeF system was deployed with significant
security vulnerabilities.
     •   The MeF project office did not prevent and resolve known security vulnerabilities before
         deployment of the system, and the Submission Processing Executive Steering
         Committee 16 approved milestone exits without giving adequate consideration to what we
         view as significant security vulnerabilities on the system.



15
   The Federal Managers’ Financial Integrity Act of 1982 (31 U.S.C. Sections 1105, 1113, 3512 (2000)) requires
that each Federal Government agency conduct annual evaluations of its systems of internal accounting and
administrative control and submit an annual statement on the status of the agency’s system of management controls.
As part of the evaluations, agency managers identify control areas that can be considered material weaknesses. The
Department of the Treasury has defined a material weakness as “shortcomings in operations or systems which,
among other things, severely impair or threaten the organization’s ability to accomplish its mission or to prepare
timely, accurate financial statements or reports.”
16
   The charter for the Submission Processing Executive Steering Committee shows that its primary objective is to
ensure that project objectives are met, risks are appropriately managed, and expenditures of enterprise resources are
fiscally sound.
                                                                                                             Page 6
                    The Internal Revenue Service Deployed the Modernized e-File
                            System With Known Security Vulnerabilities



     •   The Cybersecurity organization recommended, and the MeF system owner approved, that
         the system be fully accredited 17 without giving adequate consideration to what we view
         as significant security vulnerabilities on the system.

Prevention and resolution of security vulnerabilities were not given adequate
consideration prior to deployment of the MeF system
NIST Special Publication 800-53 specifies the recommended security controls for all Federal
Government information systems. The IRS mandated that any business unit developing an
information system must ensure that the system project office for the development effort has
adequate security engineering expertise to properly address the planning and implementation of
the minimum security controls required for protection of the data residing on its systems.
Because of the criticality of the MeF system development, the IRS established a specific project
office for the system. The project office should ensure that security controls have been
implemented and security vulnerabilities have been mitigated or resolved during the Enterprise
Life Cycle and prior to deployment.
Throughout the Enterprise Life Cycle, the Submission Processing Executive Steering Committee
has the responsibility for final exit approval at each milestone. This Committee consists of
15 IRS executives from all business operating divisions and is co-chaired by an executive from
the Wage and Investment Division and the Modernization and Information Technology Services
organization. Governance by the Committee includes ensuring that projects adhere to accepted
principles and practices of the Enterprise Life Cycle and resolving enterprise-wide issues for its
projects, such as the MeF system.
The decisions to approve milestone exits are based on the recommendation from the Enterprise
Life Cycle Program Management Office, which conducts milestone readiness reviews. When
significant security or privacy concerns exist, a conditional milestone exit might be
recommended and generally requires that the condition be corrected prior to the next milestone
exit. Otherwise, the Submission Processing Executive Steering Committee will approve an
unconditional exit approval and the system development proceeds to the next milestone effort.
As an example, in April 2006, the Director, Security Engineering Office, issued a memorandum
to the Director, Tax Administration Modernization, and the Director, Infrastructure Shared
Services, recommending that MeF system Release 4, milestone 4a exit be postponed for
30 days. The postponement was due to two security risks traced in two prior releases
(Release 3.2, milestone 4b and Release 4, milestone 2/3) and to the absence of a documented
strategy with dates of implementation, which created a “high” risk scenario for the system. Once
the documented strategy was provided, the milestone exit was approved even though the security
weaknesses remained.

17
  Accreditation is the official management decision given by the owner of an information system to authorize the
operation of the system and to explicitly accept the risks.
                                                                                                           Page 7
                    The Internal Revenue Service Deployed the Modernized e-File
                            System With Known Security Vulnerabilities



Despite these requirements, we found that six 18 of the security vulnerabilities mentioned
previously were identified repeatedly during MeF system milestone reviews and were not
corrected. Rather, they were carried over from milestone to milestone, and some were even
carried over from release to release. The Submission Processing Executive Steering Committee,
which has final milestone exit approval, signed off unconditionally on MeF system milestones
despite the existence of weaknesses repeatedly reported by the Security Engineering Office and
the Cybersecurity organization. The existence of these security vulnerabilities since earlier
releases indicates that security controls might not have been sufficiently considered during the
development phase of the system.
We believe that the Submission Processing Executive Steering Committee was in the best
position to ensure that all significant security vulnerabilities were resolved or mitigated prior to
deployment. Unfortunately, for the security vulnerabilities discussed previously, the Committee
1) did not provide sufficient oversight to ensure that security controls were implemented and
2) decided to deploy the release despite the presence of repeatedly reported significant security
vulnerabilities, as opposed to placing conditional restrictions on the release or delaying the
system’s release all together.
Of the security vulnerabilities discussed previously, we are most concerned about the lack of
audit logs, access controls, and disaster recovery capabilities in modernized systems. While it
might be understandable that older legacy systems cannot log transactions or comply with other
current security and privacy requirements, such as disaster recovery capabilities, due to older
computer equipment, the IRS should ensure that these requirements are included in modernized
systems. According to the NIST, 19 any effort to install logging capabilities or other security
controls after deployment of a system will likely cost significantly more than if the security
capabilities had been successfully designed into the system during the system development
phase.
We believe that the lack of attention to security controls during developmental phases can be
traced to other business requirements, filing season pressures, and deployment demands. These
concerns have taken precedence over security concerns, and executive-level management was
not adequately engaged to ensure that security needs and requirements were being implemented.
Consequently, the MeF system reached rollout dates without security controls, and accreditation
officials were put in the position of implementing a critical system with significant security flaws
rather than delaying system deployment.
The IRS continues to struggle with addressing security vulnerabilities on modernized systems.
We identified some of these same vulnerabilities in prior audit reports on modernization projects.
Specifically, in Fiscal Year 2005, we reported that the IRS was not adequately considering

18
  Security control vulnerabilities numbers 1, 4, 9, 10, 11, and 13 listed on pages 3 through 5.
19
  Security Considerations in the Information Development Life Cycle, NIST Special Publication 800-64 Revision 1,
published June 2004.
                                                                                                        Page 8
                    The Internal Revenue Service Deployed the Modernized e-File
                            System With Known Security Vulnerabilities



security controls early enough in the development phase of a system, including the MeF
system. 20 We identified several inadequate security controls that should have been addressed in
the development phase, including security configurations, audit logs, and disaster recovery plans.
In Fiscal Years 2004 and 2006, we reported that audit logs for IRS modernized systems,
including the MeF system, were not functioning. 21 IRS management agreed with most of our
findings and responded that they would ensure that security control requirements were planned
for early in the Enterprise Life Cycle process and that they were committed to addressing
deficiencies in audit logging on modernized systems.
In September 2008, we issued a report 22 regarding the deployment of the Customer Account Data
Engine and the Account Management Services systems with known security vulnerabilities.
Similar to this report, the September 2008 report raised concerns over decisions made to approve
milestone exits and to accredit the systems for deployment.

The MeF system was accredited despite the existence of several known security
vulnerabilities
The last step of the developmental process and the most critical key decision point prior to
deployment of a system is the accreditation by the system owner. In making the decision to
accredit an information system, the system owner essentially accepts the risk of the system and
approves the deployment and operation of the system. The system owner can give the system an
authority to operate, give the system an interim authority to operate for a period of time until
significant deficiencies are corrected, or prevent the system from being deployed. 23 The system
owner bases his or her accreditation decisions on several certification documents.
During the certification process, the Cybersecurity organization develops a test plan based on the
system security plan, performs the testing of application-specific security controls, and provides
the results in a security assessment report. The Cybersecurity organization also issues a
certification memorandum that provides a summary of the certification results and



20
   Security Controls Were Not Adequately Considered in the Development and Integration Phases of Modernization
Systems (Reference Number 2005-20-128, dated August 2005).
21
   The Audit Trail System for Detecting Improper Activities on Modernized Systems Is Not Functioning (Reference
Number 2004-20-135, dated August 2004) and Improvements Are Needed to Ensure the Use of Modernization
Applications Is Effectively Audited (Reference Number 2006-20-177, dated September 29, 2006).
22
   The Internal Revenue Service Deployed Two of Its Most Important Modernized Systems With Known Security
Vulnerabilities (Reference Number 2008-20-163, dated September 24, 2008).
23
   The NIST issued a draft revision to its Guide for Security Authorization of Federal Information Systems (Special
Publication 800-37) in August 2008. This draft document will require only two options for a system authorization
decision. An agency can either provide an authorization to operate or a denial of authorization to operate. The
current “interim authority to operate” designation will be phased out and replaced with an authorization to operate
with terms and conditions (i.e., limits and restrictions which must be followed by the system owner) and
authorization termination time limits.
                                                                                                            Page 9
                       The Internal Revenue Service Deployed the Modernized e-File
                               System With Known Security Vulnerabilities



recommendation for the system owner to grant the authority to operate, grant an interim
authority to operate, or deny the authority to operate.
Despite the presence of what we believe were significant unresolved security vulnerabilities on
the MeF system, the system owner gave the authorities to operate for the system and its database
component, the M-TRDB. In our opinion, the system owner should have given the MeF system
an interim authority to operate in consideration of the excessive risk associated with these
security vulnerabilities, particularly the inabilities to prevent modifying critical system security
settings, to successfully recover the systems and their data in the event of a disaster, and to detect
malicious security events and unauthorized accesses to taxpayer data. The current cyber-threat
environment in the Federal Government dictates the need for any significant system to have
these capabilities. As a result, we believe that the system owner’s acceptance of excessive risk
was not reasonable.
We also disagree with the MeF system certification memoranda issued by the Cybersecurity
organization, which recommended that the system owner grant an authority to operate. While
the certification memoranda mentioned the existence of security vulnerabilities on the systems,
the memorandum for MeF Release 4 stated, “With your commitment to develop a plan to address
and ultimately resolve all identified risks for the MeF application timely, I am recommending
you grant an Authorization to Operate for the MeF application.” We believe that the system
owner relied heavily on the Cybersecurity organization’s recommendation as well as the
Submission Processing Executive Steering Committee’s exit approvals during the Enterprise Life
Cycle.
As stated previously, the IRS has designated computer security as a material weakness, which
the IRS has segregated into nine separate vulnerability areas: 1) network access controls;
2) key computer applications and system access controls; 3) software configuration;
4) functional business, operating, and program units security roles and responsibilities;
5) segregation of duties between system and security administrators; 6) contingency planning
and disaster recovery; 7) monitoring of key networks and systems; 8) security training; and
9) certification and accreditation. By the IRS’ own designation and admission, these computer
security areas are materially important, meaning that any security vulnerability within these areas
is significant. While the IRS is working toward addressing these areas, we believe that the
existence of the computer security material weakness needs to be considered when making
decisions on system deployments.
We also believe that the IRS goal to certify and accredit all of its systems adversely affected the
organization’s ability to objectively evaluate the security posture of its systems, specifically with
the MeF system. NIST Special Publication 800-37 24 specifically states that systems with interim
authorities to operate cannot be considered accredited. As a result, the existence of systems with
interim authorities to operate might affect the agency in the following ways.

24
     Guide for the Security Certification and Accreditation of Federal Information Systems, published May 2004.
                                                                                                           Page 10
                     The Internal Revenue Service Deployed the Modernized e-File
                             System With Known Security Vulnerabilities



     •   The E-Government section in the President’s Management Agenda initiative pertains to
         the certification and accreditation of systems. Using the color-coded rating to determine
         success levels, the President’s Management Agenda allows an agency to achieve the
         optimum “green” status only if the agency maintained 100 percent of its systems as
         certified and accredited.
     •   The Federal Information Security Management Act 25 includes an evaluative section on
         the number of agency systems that have been certified and accredited. This percentage
         affects the agency’s overall grade.
     •   The Office of Management and Budget requires completion of the Exhibit 300 26 to
         comply with the Clinger-Cohen Act of 1996. 27 Any operational system that has not been
         certified and accredited might not have its proposed budget approved for funding by the
         Office of Management and Budget.

Recommendations
Recommendation 1: The Submission Processing Executive Steering Committee should
consider all security vulnerabilities, including those associated with general support systems, that
affect the overall security of the MeF system and the M-TRDB before approving milestone exits.
         Management’s Response: IRS management agreed with this recommendation.
         They will continue to follow the governance process documented in the Submission
         Processing Executive Steering Committee charter, which includes review of all security
         vulnerabilities, before milestone exits and will document milestone exit review
         discussions in the Submission Processing Executive Steering Committee meeting
         minutes.
Recommendation 2: The Commissioner, Wage and Investment Division, and the Chief
Information Officer should provide more emphasis to both preventing and resolving security
vulnerabilities identified during Enterprise Life Cycle processes to the MeF system project
office.
         Management’s Response: IRS management agreed with this recommendation.
         They will continue to follow the existing Enterprise Life Cycle processes for identifying,
         confirming, and resolving security vulnerabilities at the requirements, design,
         developmental, and testing life cycle stages, with an increased emphasis in both

25
   Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
26
   Exhibit 300 is the primary tool for capital planning and investment control in the Federal Government.
27
   (Federal Acquisition Reform Act of 1996) (Information Technology Management Reform Act of 1996),
Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C.,
16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C., 42 U.S.C.,
44 U.S.C., 49 U.S.C., 50 U.S.C.).
                                                                                                            Page 11
                    The Internal Revenue Service Deployed the Modernized e-File
                            System With Known Security Vulnerabilities



        preventing and resolving security vulnerabilities identified during the Enterprise Life
        Cycle. They will also strengthen the process for capturing and documenting meeting
        minutes.
Recommendation 3: The Director, Electronic Tax Administration and Refundable Credits,
Wage and Investment Division, as the MeF system owner, should approve interim authorities to
operate when significant security control weaknesses exist in system environments. These
interim authorities to operate should contain specific terms and conditions in accordance with
IRS policy that must be met, including corrective actions to be taken by the information system
owners and a required time period for completion of the corrective actions, before authorities to
operate are granted. 28
        Management’s Response: IRS management agreed with this recommendation.
        They will continue to operate in accordance with policies and procedures, which state
        that the Designated Approving Authority verifies that security assessments are conducted
        to determine that security controls are operating effectively, correctly implemented, and
        meeting security requirements of the system. If and when they find that significant
        control weaknesses exist in the system environments, they will issue an interim authority
        to operate with the appropriate timelines based on the level of risk.
        Office of Audit Comment: Although the IRS agreed with all of our
        recommendations, its related corrective actions are focused on continuing to follow
        existing processes or strengthening current processes. As stated in the report, we believe
        that the existing security vulnerabilities were not caused by process deficiencies. Instead,
        IRS offices did not carry out their responsibilities for ensuring that security weaknesses
        were corrected before deployment.




28
  As stated previously, the August 2008 draft NIST Special Publication 800-37 has replaced interim authority to
operate with an authorization to operate with terms, conditions, and termination dates.




                                                                                                         Page 12
                    The Internal Revenue Service Deployed the Modernized e-File
                            System With Known Security Vulnerabilities



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of the review was to determine whether appropriate security controls have
been implemented in the MeF system. 1 To accomplish our objective, we:
I.      Determined whether appropriate security controls had been considered and included in
        the MeF system and the M-TRDB.
        A. Reviewed the security categorization criteria prescribed by the Standards for Security
           Categorization of Federal Information and Information Systems (Federal Information
           Processing Standards Publication 199, published February 2004) and Guide for
           Mapping Types of Information and Information Systems to Security Categories (NIST
           Special Publication 800-60 Volume 1, published June 2004) and determined whether
           the security categorizations the IRS assigned to the MeF system and the M-TRDB
           were documented and supported.
        B. Compared the minimum security controls in the Recommended Security Controls for
           Federal Information Systems (NIST Special Publication 800-53 Revision 1, published
           December 2006) to the security controls listed in the system security plans for the
           MeF system Release 4 and the M-TRDB and determined whether all minimum
           security controls were included.
        C. Determined whether security controls were integrated early in MeF system Release 4
           and the M-TRDB development life cycles to be cost effective.
II.     Determined whether the security controls were fully tested by an independent test team as
        prescribed in the Guide for the Security Certification and Accreditation of Federal
        Information Systems (NIST Special Publication 800-37, published May 2004).
III.    Determined whether the security assessment reports were prepared in accordance with
        NIST Special Publication 800-37.
IV.     Determined whether the MeF system and the M-TRDB are continually monitored to
        ensure that they are configured in accordance with the security policies.
V.      Obtained supporting documentation for closed recommendations in two prior Treasury
        Inspector General for Tax Administration audit reports and determined whether


1
  The MeF system will provide a single method for filing all IRS tax returns, information returns, forms, and
schedules via the Internet. The M-TRDB, a component of the MeF system, is the authoritative store of accepted
returns and extensions submitted through the MeF system.
                                                                                                        Page 13
         The Internal Revenue Service Deployed the Modernized e-File
                 System With Known Security Vulnerabilities



corrective actions were completed and effective. The two reports were Security Controls
Were Not Adequately Considered in the Development and Integration Phases of
Modernization Systems (Reference Number 2005-20-128, dated August 2005) and
Improvements Are Needed to Ensure the Use of Modernization Applications Is Effectively
Audited (Reference Number 2006-20-177, dated September 29, 2006).




                                                                               Page 14
                The Internal Revenue Service Deployed the Modernized e-File
                        System With Known Security Vulnerabilities



                                                                               Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Security and Information
Technology Services)
Preston B. Benoit, Acting Assistant Inspector General for Audit (Information Systems Programs)
Steve Mullins, Director
Kent Sagara, Audit Manager
Esther Wilson, Lead Auditor
Charles Ekunwe, Senior Auditor
Jacqueline Nguyen, Senior Auditor




                                                                                      Page 15
                The Internal Revenue Service Deployed the Modernized e-File
                        System With Known Security Vulnerabilities



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Information Officer OS:CIO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Wage and Investment Division SE:W
       Chief Information Officer OS:CIO




                                                                       Page 16
    The Internal Revenue Service Deployed the Modernized e-File
            System With Known Security Vulnerabilities



                                                    Appendix IV

Management’s Response to the Draft Report




                                                           Page 17
The Internal Revenue Service Deployed the Modernized e-File
        System With Known Security Vulnerabilities




                                                       Page 18
The Internal Revenue Service Deployed the Modernized e-File
        System With Known Security Vulnerabilities




                                                       Page 19
